In The
I:

Supreme Court of the United States

Mark E. O’Brien, Petitioner
v.
United Bank Trust N.A., as Trustee for LSF9 Master
Participation Trust, Respondent

On Petition For A Writ of Certiorari
To The Connecticut Court of Appeals

PETITION FOR WRIT OF CERTIORI

Mark E. O’Brien
Post Office Box 342
Lunenburg, Massachusetts 01462
978-790-1936

QUESTIONS PRESENTED FOR REVIEW

Were the Defendants’ due process rights
violated when they were not given notice of the
foreclosure proceeding?
Were the Defendants’ due process rights
violated when the foreclosing party did not have
possession of the mortgage promissory note, and for
secondary evidence, relied on a fraudulent
assignment of mortgage?
Can a judicially-supervised foreclosure be
allowed where serious doubt has been raised
concerning standing of the Plaintiff?
Is it incumbent on a Trial Court Justice to
make further inquiry when post-trial, new and
material evidence has been brought to the Court’s

attention, irrespective of whether the new evidence
has been brought according to proper procedural
protocol?
Did the Trial Court err when it allowed the
testimony of the Caliber witness—a witness with no
personal knowledge of the mortgage loan, the note, or
relevant events? [Caliber is the loan servicer on the
subject mortgage].

PARTIES TO PROCEEDING AND
RELATED CASES
Kathleen M. O’Brien, 114 Wetmore Avenue, Winsted,
CT 06098
Thomas J. O’Brien, 114 Wetmore Avenue, Winsted,
CT 06098

ii

RELATED CASES
Connecticut Superior Court LLICV166014383-S
U.S. Bank Trust, N.A. as Trustee for LSF9 Master
Trust v. O’Brien, Mark E. et al.
Summary Judgment Motion by Plaintiff denied.
6/4/2018. “There is a genuine issue of material fast as
to whether notice of default and the intent to
accelerate was properly given.” [John David Moore,
J].
Summary Judgment Motion by Plaintiff denied.
12/7/2017. “...the Plaintiff has not met his burden of
showing that is the holder of the promissory note.”
[John Pickard, J].
Order of Strict Foreclosure. 5/20/2019. [John Pickard,
J].

TABLE OF CONTENTS
Questions presented for review
Parties to proceeding and related cases
Table of authorities

l-n

in

v-vi

iii

Petition

1-20

Conclusion.

20-21

Appendix,

A1-A9

Order of Strict Foreclosure.........................

A1-A6

Appeal of Strict Foreclosure/ Affirmed...

A6-A7

Motion Reconsideration En Banc Denied,

A7

Petition for Certification to Connecticut Supreme
Court Denied........ ........................................................ A8
Motion for Stay Pending Petition for Certiorari
United States Supreme Court
A8-A9

TABLE OF AUTHORITIES

AmerisourceBergen Corp. v. Dialysist West, Inc., 465
F.3d 946 (9th Cir. 2006).......................
13
Conley v. Gibson, 355 U. S. 41 (1957)

14

Foman v. Davis, 371 US 178 (1962)...

15-16

Hilton Hotels Corp. v. Damornay Antiques, Inc., No.
99-CV-4883, 1999 WL 959371

iv

9

Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025 (9th Cir.
2008)............ .................................................................. 13
Mullane v. Central Hanover Bank & Trust Co., 339
U.S. 306, (1950)

4

Navarro Sav. Ass’n v. Lee, 446 U.S. 458 (1980)........9
New England Savings Bank v. Bedford Realty Corp.,

7

238 Conn. 745 (1996)

Opoku v. Grant, 63 Conn.App. 686, 778 A.2d 981
(2001)

14

J.E. Robert Co. v. Signature Properties, LLC, 309
Conn. 307 (2013)

10

U.S. BANK TRUST, N.A., as Trustee for LSF9
Master Participation Trust v. OWEN MONROE.
1:15-CV-1480 (LEK/DJS). United States District
Court, N.D. New York. Memorandum and Order. 8
March2017
8-11

v

UNITED STATES CONSTITUTION

14th Amendment..

1,19

vi

PETITION

“All persons born or naturalized in the United
States, and subject to the jurisdiction thereof’
are citizens of the United States and of the
state wherein they reside. No state shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law. ” United States Constitution,
14th Amendment.

In Connecticut, foreclosures are judicially
supervised. That said, the Court there failed to
protect the rights of the Defendants in this case—
failed to afford them due process of law.
STATEMENT OF THE CASE
Plaintiff-Respondent commenced the
foreclosure action by Complaint on 13 October 2016
regarding a mortgage encumbering real property
located at 114 Wetmore Avenue, Winsted,

1

Connecticut. The deceased borrower, Caroline
O’Brien was in default of the subject promissory note
dated 16 December 2004, secured by a mortgage
given to Fleet National Bank, recorded in Winsted
Land Records, Volume 346, Page 978.
Mark E. O’Brien is the Defendant-Petitioner
in this action and claims an interest as heir to the
Estate of Caroline O’Brien, and by quitclaim deed
from other heirs.
Defendant filed an Answer on 27 February
2017, alleging Counterclaims which were disposed of
by Summary Judgment. However, the Court denied
Summary Judgment concerning liability on the
Complaint because the Plaintiff had not met its
burden of demonstrating that it was the holder of the
note.

2

Plaintiff filed a second Motion for Summary
Judgment on 4 April 2018, as to liability on the
Complaint, which was denied because there
remained an issue of fact as to whether notice of
default was properly given.
This matter went to trial on February 27,
2019, and the Trial Court ordered post-trial
briefs. The Trial Court ultimately entered
judgment of strict foreclosure on May 20, 2019,
which the Defendant appealed.
The Trial Court decision was affirmed by
the Appellate Court on 16 April 2020. A petition
for review by the Connecticut Supreme Court was
denied.

3

FAILURE OF NOTICE
“An elementary and fundamental requirement
of due process in any proceeding which is to be
accorded finality is notice reasonably calculated,
under all the circumstances, to apprise interested
parties of the pendency of the action and afford them
an opportunity to present their objections.” Mullane
v. Central Hanover Bank & Trust Co., 339 U.S. 306,
314 (1950).
Contrary to the rule in Mullane, the Plaintiff
here served a dead woman at an address where she
had never been. And the Plaintiff later relied on this
fatally flawed service in Court filings. “Notice of
default was given to Caroline S. O’Brien on or about
August 8, 2015 (the Notice).” [6/16/17 Affidavit of
Alyssa Salyers, authorized officer, Caliber Home
Loans, Inc]. [Connecticut Superior Court fifing. LLICV-601483-S],
4

Caroline O’Brien had died 8 years earlier on 3
August 2009.
It should be noted that the Petitioner was
allegedly served the Summons and Complaint at a
place he hadn’t lived for several years; and that the
Notice Regarding Foreclosure Mediation was served
at an address where the Petitioner had never lived.
The Plaintiff relied on this phantom service in
Connecticut Superior Court documents.

ASSIGNMENT OF MORTGAGE
A FACTUAL IMPOSSIBILITY
As pointed-out by the Defendant at trial, the
assignment of mortgage is a factual impossibility. A
fraud dummied-up at Caliber headquarters
because—absent the note— Caliber needed an

5

V
assignment in order to foreclose. [Caliber Home
Loans, Inc. is the servicer on the mortgage].
The assignment-in-question is dated 25 July
2016, and purports to move the mortgage from Bank
of America to the Plaintiff on that date. However, for
a mortgage to be in the LSF9 Trust, it had to be part
of a deal where at auction in June 2014, Lone Star
Funds [Lone Star] purchased a bundle of distressed
mortgages from the Department of Housing and
Urban Development. The winning bid was roughly
$3.8 billion, and the subject mortgage was among
other distressed mortgages. But later, in 2016, Bank
of America no longer had the mortgage which had
two years earlier moved from Bank of America, to
HUD, to Lone Star.
The Assignment was drafted and Notarized at
a Caliber office in Oklahoma and purports to
memorialize a transaction between Bank of America
6

in California, and U.S. Bank by its attorney-in-fact—
Caliber, concerning a mortgage on a property in
Connecticut, two years after that conveyance was
possible.
In pleadings, the Plaintiff insisted that it
didn’t need the note anyway—that it could rely on
secondary evidence. “The loss of a bill or note alters
not the rights of the owner, but merely renders
secondary evidence necessary and proper.” New
England Savings Bank v. Bedford Realty Corp., 238
Conn. 745, 760 (1996)
However, if the secondary evidence alluded to
by the Plaintiff is a fraudulent document; that
evidence is by any analysis, inadmissible.
In the Assignment, Caliber purports to be the
attorney-in-fact for Bank of America. This is a
glaring, if not illegal, conflict of interest because

7

Caliber is owned by Lone Star, the outfit that
purchased the subject mortgage and other distressed
mortgages back in 2014, bundling them into a
securitized Trust known as LSF9. [Lone Star Funds].

STANDING TO FORECLOSE
A PREMISE BUILT ON SHIFTING SAND
The Defendant had not seen the Assignment of
Mortgage until the day of the trial. In researching
that transaction post-trial but before a decision by
the Court, the Plaintiff discovered a parallel case
from the New York Federal Court with identical
Plaintiff and similar facts. The Court there
questioned the standing of United Bank Trust, N.A.,
as Trustee for LSF9 Master Participation Trust. U.S.
BANK TRUST, NA., as Trustee for LSF9 Master
Participation Trust v. MONROE. 1:15-CV-1480
8

(LEK/DJS). United States District Court, N.D. New
York. Memorandum and Order. 8 March 2017.
“While U.S. Bank is the nominal plaintiff in
this case, it is longstanding federal law that "court[s]
must disregard nominal or formal parties and rest
jurisdiction only upon the citizenship of real parties
to the controversy." Navarro Sav. Ass'n v. Lee, 446
U.S. 458, 461 (1980). "Where an agent acts on behalf
of a principal, the principal, rather than the agent,
has been held to be the real and substantial party to
the controversy. As a result, it is the citizenship of
the principal—not that of the agent—that controls
for diversity purposes." Hilton Hotels Corp. v.
Damornay Antiques, Inc., No. 99-CV-4883, 1999 WL
959371, at *2 (S.D.N.Y. Oct. 20, 1999) (citing Airlines
Reporting Corp. v. S&N Travel, Inc., 58 F.3d 857,
862 (2d Cir. 1995)). At issue here is the application of

9

this rule in lawsuits brought by a trustee on behalf of
a trust.”
The question in this case is the same as it was
in the New York case: Is the nominal Plaintiff—U.S.
Bank—the, “real and substantial party to the
controversy,” or is the principal, the LSF9 Master
Participation Trust the real party to the controversy,
or some other entity?
"Where a party is found to lack standing, the
court is consequently without subject matter
jurisdiction to determine the cause." J.E. Robert Co.
v. Signature Properties, LLC, 309 Conn. 307, 318, 71
A.3d 492 (2013).
In a similar Massachusetts case, involving
U.S. Bank, N.A. [U.S. Bank], part of the record was a
July 2018 letter to a homeowner facing foreclosure,
in which U.S. Bank concedes that it isn’t a real party
10

to the controversy. “Please note, the Trust is the
owner of the mortgage and note, not the trustee, or
us in our individual capacity.” By this reasoning,
U.S. Bank cannot be, “the real and substantial party
to the controversy.” Damornay at *2.
It should be noted that in Footnote 4 to his
Memorandum and Decision, Judge Kahn wrote of
another case involving a Lone Star Funds Trust and
U.S. Bank. “When it did file the trust instrument,
"the text.. . was almost entirely redacted," and the
only visible portion seemed to oppose the notion that
U.S. Bank was an active trustee with real and
substantial control over the trust assets. This failure
should not be repeated here.” [The case was later
dismissed and Judgment entered in favor of the
Defendant on 12 April 2017. Plaintiff U.S. Bank did
not appeal]

11

These concerns of Judge Kahn—along with a
copy of the letter from U.S. Bank to the
Massachusetts mortgagors- were presented the Trial
Court and later to the Connecticut Court of Appeals.
Unfortunately, the question of legitimate standing
fell on deaf ears.
JUDGMENT IS PREMATURE
WHERE PROPOSED AMENDMENTS
WOULD MATERIALLY CHANGE THE
OUTCOME OF THE PROCEEDINGS
The Defendant brought new evidence to the
Court after the trial. However, the Trial Court issued
an Order of Strict Foreclosure to the exclusion of the
new evidence. “Based on the evidence that was
admitted, the court finds that the plaintiff is the
party entitled to collect the debt reflected by the lost
note and is the party entitled to enforce the
12

mortgage.” [Court Order and Memorandum. 20 May
2019].
Other Courts have allowed post-trial
amendments to the pleadings where those
amendments would rescue the case from dismissal or
summary judgment. “In granting a motion to
dismiss, a district court should provide leave to
amend unless it is clear that the complaint could not
be saved by any amendment. See Manzarek v. St.
Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1031
(9th Cir. 2008).Exceptions to the general policy of
granting leave exist “where the amendment:
(l)prejudices the opposing party; (2) is sought in bad
faith; (3) produces an undue delay in litigation; or (4)
is futile.” AmerisourceBergen Corp. v. Dialysist West,
Inc., 465 F.3d 946, 951 (9th Cir. 2006).”

13

Connecticut Courts reach the issue more
loosely. “"[T]he purpose of a reargument is ... to
demonstrate to the court that there is some decision
or some principle of law which would have a
controlling effect, and which has been overlooked, or
that there has been a misapprehension of facts.... It
also may be used to address alleged inconsistencies
in the trial court's memorandum of decision as well
as claims of law that the [movant] claimed were not
addressed by the court.... [A] motion to reargue
[however] is not to be used as an opportunity to have
a second bite of the apple or to present additional
cases or briefs which could have been presented at
the time of the original argument." Opoku v. Grant,
63 Conn.App. 686, 692-93, 778 A.2d 981, 985 (2001).
However, the Supreme Court in Foman brings
us back to the overarching justification for
amendments, and the tenet that mistakes or
14

omissions made at the pleading stage should not be
fatal to the argument. "The Federal Rules reject the
approach that pleading is a game of skill in which
one misstep by counsel may be decisive to the
outcome and accept the principle that the purpose of
pleading is to facilitate a proper decision on the
merits." Foman v. Davis, 371 US 178, 182 (1962)
citing Conley v. Gibson, 355 U. S. 41, 48 (1957).
The Petitioner in the present case brought
matters to the attention of the Court when those
matters became available to the Petitioner. The
post-trial brief of the Petitioner contained five
Motions to the Court which in sum asked that the
any decision on the merits be delayed until new
evidence could be considered. "... the Court of
Appeals should have treated the appeal from the
denial of the motions as an effective, although inept,

15

attempt to appeal from the judgment sought to be
vacated.” Foman at 181.
The Court made no comment on the Motions
except to say that, “Most of them [arguments] rely on
citations to internet articles which were not
introduced into evidence. He makes allegations of
fact which are not based on any evidence offered or
admitted at the trial.”
The Petitioners post-trial brief, however, is an,
“effective, although inept attempt,” to stop the
proceedings pending leave to amend with evidence
not available at trial.
“...the leave sought should, as the rules
require, be "freely given." Of course, the grant or
denial of an opportunity to amend is within the
discretion of the District Court, but outright refusal
to grant the leave without any justifying reason

16

appearing for the denial is not an exercise of
discretion; it is merely abuse of that discretion and
inconsistent with the spirit of the Federal Rules.”
Foman at 182.
THE PLAINTIFF WITNESS WITH NO
PERSONAL KNOWLEDGE
At trial, the Defendant objected to the
testimony of the Caliber witness because the witness
had no personal knowledge of the subject mortgage
or promissory note, but could only comment on how
things are done at Caliber, and that he had seen
photocopies of relevant documents including the
Assignment of Mortgage.
The witness stood by the Assignment of
Mortgage that purports to transfer interest in the
subject property from Bank of America to the
Plaintiff here, on 25 July 2016, when Bank of

17

America did not have the subject mortgage to
transfer. It had been bought by the Department of
Housing and Urban Development and bundled
together with other distressed mortgages to be sold
at auction in June of 2014. The high bidder was Lone
Star Funds which placed the mortgages into a
securitized Trust—the LSF9 Master Trust.
The witness also stood by the Affidavit of Bank
of America employee Yamilla Soto—that the subject
promissory note is, “destroyed, its whereabouts
cannot be determined, or it is in the wrongful
possession of an unknown person.”
As the Defendant said at trial—the
information contained in the Yamilla Soto Affidavit
is neither instructive nor dispositive to the
question—who holds the note? And the secondary
evidence—the factually impossible Assignment of

18

Mortgage—is less convincing concerning the
prospective party entitled to enforce the mortgage.
The Caliber witness admitted that he had
never been to the Bank of America office where the
deceased debtor allegedly signed the promissory
note; that he had only seen copies of original
documents, but that he knew that Caliber’s
procedures were the correct procedures. Caliber is
owned by Lone Star Funds, and has a vested interest
in protecting the purported assets of Lone Star.
No witness from Lone Star or U.S. Bank
appeared, although absent a witness from Bank of
America, they would have been most helpful to the
trier of fact. On the contrary, the foreclosure was
rubber-stamped by the Court on the basis of factually
impossible documents—a mortgage transferred two
years after it had left the transferrer’s hands, and

19

sworn service on a dead woman, among other
improprieties.
Slip shod foreclosures of this sort shouldn’t get
past the watchful eye of the Court, especially in a
state where foreclosures are judicially supervised
and the 14th Amendment guarantees the legal
process due—a process not afforded the Defendants
in the instant case.

CONCLUSION RULE 14.1(h)
WHEREFORE, because the petitioner has
been deprived of property without due process of law
in violation of the United States Constitution, 14th
Amendment, the petitioner asks that this Honorable

20

Court grant certiorari and take a second look at the
decisions of the Connecticut Courts.
Specifically, the lower Court did not afford the
petitioner the process due when failed to admit new
evidence after trial, and when it allowed the
Plaintiffs use of factually-impossible documentation
as material evidence at trial.
Respectfully Submitted,

/s/
ark E. O’Brien______
Post Office Box 342
Lunenburg, Massachusetts 01462
978.790.1936.

21

